                          Limited Official Use




              Controls Over the Processing of the
          Mortgage Interest Credit Need to Be Improved

                          September 2005

                 Reference Number: 2005-40-137



The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.” Because this
document has been designated LOU, it may only be made available to
those officials that have a need to know the information contained within
this report in the performance of their official duties. This report must be
safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure
Section within the TIGTA’s Office of Chief Counsel.




                          Limited Official Use
                                 Limited Official Use
   Controls Over the Processing of the Mortgage Interest Credit Need to Be Improved




                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Tracy Harper, Lead Auditor
Jack Forbus, Senior Auditor
John Kirschner, Senior Auditor
Andrea McDuffie, Auditor
Nelva Usher, Auditor




                                    Limited Official Use
